     Department of Homeland Security
     2IÀFH RI ,QVSHFWRU *HQHUDO


         Wyoming's Management of State
 Homeland Security Program Grants Awarded During
         Fiscal Years 2010 Through 2012




OIG-14-31                            February 2014
                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                               Washington, DC 20528 / www.oig.dhs.gov



                                       FEB 7 2014

MEMORANDUM FOR:              Brian E. Kamoie
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Mark Bell
                             Acting Assistant Inspector General for Audits

SUBJECT:                     Wyoming’s Management of State Homeland Security Program
                             Grants Awarded During Fiscal Years 2010 Through 2012

Attached for your information is our final report, Wyoming’s Management of State
Homeland Security Program Grants Awarded During Fiscal Years 2010 Through 2012. We
incorporated the formal comments from the Federal Emergency Management Agency and
the State of Wyoming in the final report.

The report contains nine recommendations aimed at improving the State of Wyoming’s
management of State Homeland Security Program grants. Your office concurred with six of
the recommendations. Recommendations #1, #3, #4, and #8 are open and unresolved. As
prescribed by the Department of Homeland Security Directive 077-01, Follow-Up and
Resolutions for Office of Inspector General Report Recommendations, within 90 days of the
date of this memorandum, please provide our office with a written response that includes
your (1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the status of the recommendation.
Until your response is received and evaluated, the recommendations will be considered
open and unresolved.

Based on information provided in your response to the draft report, we consider
recommendations #5, #6, and # 9 resolved and closed. Recommendations #2 and #7 are
open and resolved. Once your office has fully implemented the recommendations, please
submit a formal closeout letter to us within 30 days so that we may close the
recommendations. The memorandum should be accompanied by evidence of completion of
agreed-upon corrective actions and of the disposition of any monetary amounts.

Please email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov.
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Consistent with our responsibility under the Inspector General Act, we will provide copies of
   our report to appropriate congressional committees with oversight and appropriation
   responsibility over the Department of Homeland Security. We will post the report on our
   website for public dissemination.

   Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
   Assistant Inspector General for Audits, at (202) 254-4100.

   Attachment




www.oig.dhs.gov                                2                                      OIG-14-31
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1

   Background ......................................................................................................................... 2

   Results of Audit ................................................................................................................... 3

              Measuring Preparedness Improvements ............................................................... 4
              Recommendations ................................................................................................. 6
              Management Comments and OIG Analysis ........................................................... 6

              Grant Allocation Methodology ............................................................................. 10
              Recommendations ............................................................................................... 11
              Management Comments and OIG Analysis ......................................................... 11

              Grant Management Oversight .............................................................................. 13
              Recommendations ............................................................................................... 15
              Management Comments and OIG Analysis ......................................................... 15

              Sustainment of Capabilities .................................................................................. 18
              Recommendation ................................................................................................. 18
              Management Comments and OIG Analysis ......................................................... 18

   Appendixes
              Appendix A:           Objectives, Scope, and Methodology ........................................... 20
              Appendix B:           Management Comments to the Draft Report .............................. 22
              Appendix C:           State of Wyoming’s Management Comments to the Draft
                                    Report ........................................................................................... 28
              Appendix D:           Homeland Security Grant Program Overview .............................. 32
              Appendix E:           Wyoming Counties and Regions ................................................... 33
              Appendix F:           State of Wyoming Procurement and Financial Management
                                    Compliance Issues and Schedule of Questioned Costs ................ 34
              Appendix G:           Major Contributors to This Report ............................................... 36
              Appendix H:           Report Distribution ....................................................................... 37




www.oig.dhs.gov                                                                                                                  OIGͲ14Ͳ31
                      OFFICE OF INSPECTOR GENERAL
                         Department of Homeland Security


   Abbreviations
           CFR     Code of Federal Regulations
           DHS     Department of Homeland Security
           FEMA    Federal Emergency Management Agency
           FY      fiscal year
           HSGP    Homeland Security Grant Program
           OIG     Office of Inspector General
           SAA     State Administrative Agency
           SHSP    State Homeland Security Program
           SPR     State Preparedness Report
           State   State of Wyoming
           THIRA   Threat and Hazard Identification and Risk Assessment
           WOHS    Wyoming Office of Homeland Security




www.oig.dhs.gov                                                           OIGͲ14Ͳ31
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110Ͳ53, Implementing Recommendations of the 9/11 Commission Act of
   2007, requires the Department of Homeland Security (DHS) Office of Inspector General
   (OIG) to audit individual States’ management of State Homeland Security Program and
   Urban Areas Security Initiative grants. This report responds to the reporting
   requirement for the State of Wyoming.

   The audit objectives were to determine whether the State of Wyoming distributed,
   administered, and spent State Homeland Security Program grant funds strategically,
   effectively, and in compliance with laws, regulations, and guidance. We also addressed
   the extent to which funds awarded enhanced the ability of State grantees to prevent,
   prepare for, protect against, and respond to natural disasters, acts of terrorism, and
   other manmade disasters. The Federal Emergency Management Agency (FEMA)
   awarded the State of Wyoming approximately $15 million in State Homeland Security
   Program grant funds during fiscal years 2010 through 2012.

   In most instances, the State of Wyoming distributed and spent State Homeland Security
   Program grant funds in compliance with applicable Federal laws and regulations;
   however, the process still needs improvement. For example, the State of Wyoming did
   not 1) establish a means to measure progress toward preparedness as a result of
   receiving grant funds; 2) allocate funding based on risks; 3) ensure that grant funds were
   expended in compliance with Federal requirements and in alignment with the purpose
   of the grant; or 4) have a plan to sustain preparedness capabilities if grant funds are
   reduced or eliminated. We also identified $393,752 in questioned costs, primarily
   resulting from the expenditures not complying with Federal or State procurement and
   employee compensation requirements.

   We made nine recommendations to FEMA, which, when implemented, should
   strengthen program management, performance, and oversight. Both FEMA and the
   State of Wyoming concurred with six of the nine recommendations.




www.oig.dhs.gov                                1                                        OIGͲ14Ͳ31
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State, territory, local, and tribal governments to prevent, protect against, mitigate,
   respond to, and recover from terrorist attacks and major disasters. Within DHS, FEMA is
   responsible for the administration of the HSGP. The State Homeland Security Program
   (SHSP) is a program included in the HSGP, designed to fund preparedness needs,
   including planning, organization, equipment, training, and exercises. Appendix D
   contains a detailed description of the grant programs that constitute the HSGP.

   FEMA awarded the State of Wyoming (State) SHSP grant funds during fiscal years (FY)
   2010, 2011, and 2012, totaling approximately $15 million. The State is comprised of 23
   counties and 2 tribes, divided into 8 regions. See appendix E for a map of Wyoming
   counties and regions. Eight Regional Emergency Response Teams and the State’s larger
   political subdivisions provide the resources necessary to aid smaller political
   subdivisions responding to major emergencies within the State.

   The Governor of Wyoming designated the Director of the Wyoming Office of Homeland
   Security (WOHS) as the State Administrative Agency (SAA) responsible for administering
   the HSGP. The SAA is responsible for managing the grant program in accordance with
   established Federal guidelines and allocating funds to State and local government
   entities.

   States are required to have a State Homeland Security Strategy and Investment
   Justifications, among other requirements, to apply for HSGP funds. State Homeland
   Security Strategies serve as the basis for requesting HSGP funds, as well as guide and
   focus state preparedness activities, budgets, and priorities. Grantees are encouraged to
   update the State Homeland Security Strategies every 2 years. Similarly, States use
   Investment Justifications to propose projects to FEMA that require funding to address
   gaps and deficiencies in current capabilities.

   In June 2012, FEMA required SAAs receiving funding under the FY 2012 HSGP to
   complete a Threat and Hazard Identification and Risk Assessment (THIRA) by December
   31, 2012. The goal of the THIRA process is to integrate threats into the risk assessment
   process more effectively. SAAs use the analysis of the THIRA results to guide future
   disaster preparedness efforts. Additionally, recipients of HSGP funds are required to
   complete State Preparedness Reports (SPR), which are selfͲassessments of
   preparedness and should address capability targets, current capability levels, and
   resource needs. FEMA uses SPR data in the development of the National Preparedness
   Report that summarizes progress toward achieving core capabilities in the DHS National




www.oig.dhs.gov                                 2                                        OIGͲ14Ͳ31
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Preparedness Goal.1 According to FEMA, State Homeland Security Strategy updates are
   still encouraged, but not required, as the THIRA and SPR have replaced them.

   Figure 1 illustrates the levels of SHSP funding Wyoming received over a 5Ͳyear period.
   SHSP funding averaged $5 million per year during FYs 2010 through 2012, the periods
   covered by our audit. The State received its highest level of SHSP funding in FY 2010, but
   faced a $3.8 million decline from FY 2010 to FY 2012.

                        Figure 1. SHSP Funding Levels, FYs 2008 to 2012

                                       Wyoming SHSP Funding
                              $5,781,943               $6,613,200

                                          $6,524,500                         $5,137,205



                                                                                 $2,801,316

                                2008         2009         2010          2011         2012
                        Source: Prepared by DHS OIG

   Public Law 110Ͳ53, Implementing Recommendations of the 9/11 Commission Act of
   2007, requires the DHS OIG to audit individual States’ management of SHSP and Urban
   Areas Security Initiative grants. This report responds to the reporting requirement for
   the State of Wyoming. Appendix A contains details on the objective, scope, and
   methodology of the OIG audit.


   Results of Audit
   In most instances, the State of Wyoming distributed and spent SHSP grant funds in
   compliance with applicable Federal laws and regulations; however, improvements are
   needed. For example, the State of Wyoming did not 1) establish a means to measure
   progress toward preparedness as a result of receiving grant funds; 2) allocate funding
   based on risks; 3) ensure that grant funds were expended in compliance with Federal
   requirements and in alignment with the purpose of the grant; or 4) have a plan to
   sustain preparedness capabilities if grant funds are reduced or eliminated. We also

   1
     The National Preparedness Goal establishes core capabilities necessary for a secure and resilient Nation with the
   capabilities required across the whole community to prevent, protect against, mitigate, respond to, and recover from
   the threats and hazards that pose the greatest risk.


www.oig.dhs.gov                                             3                                                    OIGͲ14Ͳ31
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   identified questioned costs of $393,752, primarily resulting from the expenditures not
   complying with Federal or State procurement and employee compensation
   requirements.

           Measuring Preparedness Improvements

           The WOHS linked its State Homeland Security Strategies to the national priorities
           and DHS mission areas, submitted SPR, and completed a THIRA. However, it
           could not demonstrate quantifiable preparedness improvements and
           accomplishments because it did not set measurable target performance levels
           that could be compared to actual achievements or have a plan to measure
           performance. Title 44 of the Code of Federal Regulations (CFR) §13.40(a),
           requires grantees to monitor grantͲ and subgrantͲsupported activities to ensure
           that performance goals are being achieved. Without goals and objectives against
           which it could measure progress and a plan to assess performance, the WOHS
           could not evaluate the effect of grant expenditures on the State’s preparedness
           and response capabilities.

           Measurable Target Levels of Performance

           According to FEMA’s Department of Homeland Security State and Urban Area
           Homeland Security Strategy Guidance on Aligning Strategies with the National
           Preparedness Goal (Guidance), dated July 22, 2005, an objective sets a tangible
           and measurable target level of performance over time against which actual
           achievement can be compared, including a goal expressed as a quantitative
           standard, value, or rate.

           Although the goals and objectives in the State’s FY 2010, 2011, and 2012
           Homeland Security Strategies aligned with national priorities and met most
           Federal guidance requirements, they did not always include:

                  x   Measurable target levels of performance to compare with actual
                      achievement;
                  x   Identification of specific outcomes; or
                  x   Established target dates for completion.

           For example, the objective to continue to strengthen information sharing and
           collaboration capabilities across Federal, state, tribal, local, and private partners
           to enhance communication processes was not measurable; did not identify a
           specific outcome; and was not time limited. Additionally, the objective
           contained an implementation step with a completion date of September 2009;
           this objective appeared again in the FY 2010 through 2012 strategies. Without


www.oig.dhs.gov                                  4                                         OIGͲ14Ͳ31
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


             measureable goals and objectives, the WOHS could not evaluate the effect of
             grant expenditures on the State’s preparedness and emergency response
             capabilities.

            Performance Measurement Plan

            FEMA’s Guidance, also provides direction for establishing an evaluation plan.
            According to the Guidance, "[a] review and analysis process should be a part of
            the normal operations and management of the State or Urban Area. The review
            and analysis should focus on the steps being taken to achieve the goals and
            objectives of the strategy as well as determining whether the right elements are
            being used to measure progress.”2

            The WOHS completed SPRs; however, the WOHS did not have a performance
            measurement plan to assess progress in attaining preparedness and response
            capabilities to support its selfͲassessment. Additionally, the WOHS did not
            include preparedness assessments of local jurisdictions in the SPR, although local
            jurisdictions are required to receive 80 percent of SHSP grant funds. FEMA did
            not provide performance measurement guidance to the State to support its selfͲ
            assessments in the SPRs or establish policies and procedures to validate SPR
            submissions for accuracy and reliability. As a result, the information reported in
            the SPRs, as well as the SPR data used to develop the National Preparedness
            Reports, may not be accurate and reliable.

            Threat and Hazard Identification and Risk Assessment

            The WOHS completed a THIRA that identified threats and hazards, and
            established preparedness and response capability targets. However, the WOHS
            did not include local jurisdictions when conducting its analysis. FEMA’s guidance
            for completing the THIRA indicated the expectation that SAAs should include the
            whole community when completing the THIRA.3 The State‘s THIRA indicates the
            intention to solicit and address concerns from its counties regarding their local
            hazards, core capabilities, and to allow participation from a contributor
            perspective in future THIRAs. Without local jurisdiction involvement in the
            development of the THIRA, the State may not allocate resources effectively to
            achieve capability targets and mitigate risks.



   2
    FEMA’s Department of Homeland Security State and Urban Area Homeland Security Strategy Guidance
   on Aligning Strategies with the National Preparedness Goal (Guidance), July 22, 2005, page AͲ5.
   3
    FEMA Grant Programs Directorate Information Bulletin, No. 385(a), June 1, 2012, “The SAA is expected to engage its
   whole community to ensure the entire scope of statewide risk is incorporated into the State THIRA.”


www.oig.dhs.gov                                             5                                                   OIGͲ14Ͳ31
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate
           require WOHS to:

           Recommendation #1: Develop and implement a performance measurement
           plan to assess its progress in attaining preparedness and response capabilities
           and to support its selfͲassessment in the SPR.

           Recommendation #2: Include State, local, and tribal governments in the
           development of the Threat and Hazard Identification and Risk Assessment.

           We recommend that the Assistant Administrator, Grant Programs Directorate:

           Recommendation #3: Develop and provide performance measurement
           guidance to States to support their selfͲassessments in SPR.

           Recommendation #4: Develop and implement a process to validate the
           information reported in the SPRs.

           Management Comments and OIG Analysis

           FEMA’s Response to Recommendation #1:
           FEMA concurred with recommendation #1. According to FEMA, it has
           established and implemented a system to help states, territories, tribes, and
           urban areas develop measurable goals and objectives that will enable them to
           measure improvements in first responder capabilities and preparedness
           systematically.

           In December 2012, the State of Wyoming submitted its THIRA, which identified
           its capability targets based on the risks it faces, and its SPR, which identified the
           gaps. The two documents together allow the state to identify its threats and risks
           and assess what capabilities are available to meet and overcome catastrophes
           resulting from these gaps. The State Homeland Security Strategy is used to
           layout the plan to close the identified gaps in capabilities, and the Investment
           Justifications are the implementation of that plan. The State of Wyoming needs
           to update its strategic plan at this time.

           FEMA believes that use of the THIRA, SPR, State Homeland Security Strategy, and
           Investment Justifications satisfies the intent of this recommendation and creates
           a methodology for measuring progress in building preparedness.



www.oig.dhs.gov                                  6                                        OIGͲ14Ͳ31
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           FEMA requested that the recommendation be resolved and open pending
           completion of the update to the State Homeland Security Strategy.

           WOHS’ Response to Recommendation #1:
           WOHS concurred with recommendation #1. According to WOHS, the current
           State Homeland Security Strategy covers the period of 2012о2014. The strategy
           will be reviewed and updated, in compliance with grant guidance that
           encourages States to update their strategies every other year. In particular,
           updates will focus on the inclusion of gaps identified in the SPR.

           OIG Analysis:
           While FEMA and WOHS concur with recommendation #1, the proposed actions
           do not address the intent of the recommendation. The proposed resolution did
           not include the development and implementation of a performance
           measurement plan to support the selfͲassessment information reported in the
           SPR.

           We recognize the intent of the SPR was to measure progress toward identified
           capability gaps. However, the State reports this information itself. The State
           needs a method to validate the responses within the SPR to ensure the selfͲ
           assessment process is accurate and the data corroborated. Without a
           performance measurement plan, and the underlying data to support it, there is
           no assurance that the information reported in the SPR and ultimately the
           National Preparedness Report is valid.

           Recommendation #1 will remain unresolved and open until FEMA provides a
           corrective action plan that addresses the intent of the recommendation.

           FEMA’s Response to Recommendation #2:
           FEMA concurred with recommendation #2. According to FEMA, it will assist the
           WOHS in preparing a policy with procedures to leverage the social infrastructure
           of the whole community in defining needs and devising ways to meet them,
           within 180 days of the published final report. This will involve not only the
           inclusion of State, local and tribal governments but also the inclusion of other
           types of institutions and individuals representing the volunteer, faith, and
           communityͲbased organizations, the private sector and the public.

           FEMA believes the above actions satisfy the intent of the recommendation and
           requests that this recommendation be resolved and open pending
           implementation of the stated corrective actions.




www.oig.dhs.gov                                7                                      OIGͲ14Ͳ31
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           WOHS’ Response to Recommendation #2:
           WOHS concurred with recommendation #2. According to WOHS, it has already
           begun the process of soliciting input from stakeholders. As a part of the 2013
           THIRA process, WOHS provided training on the THIRA process for the 23 County
           Coordinators and 2 Tribal Coordinators. Because of this training, a draft THIRA
           was received by one county and the input will be incorporated into the state
           2013 THIRA. In the 2014 THIRA process, WOHS intends to include other
           governmental and nongovernmental organizations, which will further enrich the
           state THIRA.

           OIG Analysis:
           The actions proposed by FEMA and WOHS meet the intent of recommendation
           #2. This recommendation will remain resolved and open until we have reviewed
           the WOHS procedures for including State, local, and tribal governments in the
           development of the THIRA.

           FEMA’s Response to Recommendation #3:
           FEMA concurred with recommendation #3. According to FEMA, it agrees that not
           all the tools to measure performance progress were in place during the grant
           years looked at under this audit. However, as stated in response to
           recommendation #1, FEMA believes that use of the THIRA, SPR, State Homeland
           Security Strategy, and Investment Justifications, as a system, satisfies the intent
           of this recommendation.

           FEMA believes that the National Preparedness System, when looked at in its
           totality, provides the recommended guidance and tools to States and creates a
           methodology for measuring progress in building preparedness. FEMA requested
           that this recommendation be resolved and closed.

           WOHS’ Response to Recommendation #3:
           WOHS concurred with recommendation #3. According to WOHS, it has
           implemented a process to gather whole community input for the 2013 SPR. In an
           attempt to further develop the participation by the whole community and to
           better inform the SPR, a reporting tool was distributed to the 23 County
           Coordinators and 2 Tribal Coordinators. Two contributions were received and
           will be used in preparation of the 2013 SPR.

           OIG Analysis:
           While FEMA and WOHS concur with recommendation #3, the proposed actions
           do not address the intent of the recommendation. The intent of the
           recommendation was for FEMA to develop and provide performance
           measurement guidance to States, which would provide reasonable assurance


www.oig.dhs.gov                                 8                                        OIGͲ14Ͳ31
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           that their selfͲassessments, reported in the SPR, are based on accurate and
           reliable data.

           We recognize the intent of the SPR was to measure progress toward identified
           capability gaps. However, the State reports this information itself. The States
           need a method to validate the responses within the SPR to ensure the selfͲ
           assessment process data are accurate and corroborated.

           Recommendation #3 will remain unresolved and open until FEMA provides a
           corrective action plan that addresses the intent of the recommendation.

           FEMA’s Response to Recommendation #4:
           FEMA concurred with recommendation #4. FEMA agrees that not all the tools to
           measure performance progress were in place during the grant years reviewed
           during this audit. FEMA believes that use of the THIRA, SPR, State Homeland
           Security Strategies, and Investment Justifications satisfies the intent of this
           recommendation. FEMA requested that this recommendation be resolved and
           closed.

           WOHS’ Response to Recommendation #4:
           WOHS concurred with recommendation #4. According to WOHS, it will continue
           to develop the participation by the whole community into the THIRA, SPR, State
           Homeland Security Strategies, and Investment Justifications.

           OIG Analysis:
           While FEMA and WOHS concur with the recommendation, the proposed actions
           do not address the intent of the recommendation. The proposed resolution did
           not include the development and implementation of an oversight process to
           ensure SPR data, which is selfͲreported by States, is valid. FEMA incorporates
           States’ SPR information into the National Preparedness Report. Without a
           process to validate the SPR information, FEMA cannot ensure the SPRs and
           subsequently the National Preparedness Reports, are accurate and reliable.

           This recommendation is intended to work in conjunction with recommendations
           #1 and #3.

           Recommendation #4 will remain unresolved and open until FEMA provides a
           corrective action plan that addresses the intent of the recommendation.




www.oig.dhs.gov                                9                                         OIGͲ14Ͳ31
                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Grant Allocation Methodology

           For most subgrantees, the WOHS’ grant allocation methodology used a formula
           that included a base amount in addition to an amount that varied with
           population or the number of certified law enforcement officers. Other
           subgrantees received a fixed amount of funds. WOHS’ allocation methodology
           did not include factors such as the potential risk of terrorism and other hazards
           to people, critical infrastructure, and economic security. Additionally, WOHS
           neither required subgrantees to provide spend plans or budgets, nor required
           them to show how planned expenditures would contribute to achieving
           homeland security strategic goals and objectives. According to WOHS officials,
           the State uses this allocation methodology to ensure all jurisdictions receive a
           “fair share” of grant funds. As a result, grant funds may not be distributed to
           areas where the risk of terrorism or other catastrophic event is greatest.

           According to FEMA’s 2010 HSGP guidance, activities implemented under SHSP
           must support terrorism preparedness by building or enhancing capabilities
           related to the prevention of, protection from, response to, and recovery from
           terrorism. FEMA allocated SHSP funds to States based on a risk assessment that
           considered the potential risk of terrorism to people, critical infrastructure, and
           economic security.

           According to WOHS officials, jurisdictions applied for grant funds prior to 2003.
           However, smaller jurisdictions may not have received their fair share of the
           grants, because they did not have the staff or expertise to write grant proposals.
           In 2003, the allocation methodology changed to ensure all jurisdictions received
           a fair share of funds for equipment and training. However, this allocation
           methodology has resulted in:

                  x   WOHS not being aware of how grant funds will be expended until
                      reimbursement of expenses is requested by subgrantees;
                  x   Subgrantees purchasing routine law enforcement items, such as
                      flashlights and gloves, that would normally be procured with local funds;
                  x   Individual subgrantees needing to pool their funds to purchase
                      equipment;
                  x   Subgrantees spending grant funds on activities that do not support
                      terrorism preparedness (as shown in table 1 detailing the questioned
                      costs associated with these expenditures); and
                  x   Subgrantees not using the funds allocated to them.




www.oig.dhs.gov                                   10                                       OIGͲ14Ͳ31
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Therefore, WOHS did not spend SHSP grant funds effectively to address the
           State’s and local jurisdiction’s risks and preparedness needs associated with
           terrorism or other catastrophic disasters.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate
           encourage WOHS to:

           Recommendation #5: Include risk factors such as population density, critical
           infrastructure, and economic impact in its SHSP allocation methodology to
           ensure grant funds are distributed to areas where the risk of terrorism and the
           effects of catastrophic disasters are greatest.

           Recommendation #6: Use subgrantee project budgets or spend plans as the
           basis for subgrantee awards to ensure that the planned use of the grant funds
           support hazard and terrorism preparedness activities.

           Management Comments and OIG Analysis

           FEMA’s Response to Recommendation #5:
           FEMA did not concur with recommendation #5. According to FEMA, while it
           understands the intent of the recommendation, it cannot require States to use
           specific risk assessment factors to prioritize SHSP subͲawards. The Homeland
           Security Act of 2002, as amended, gives States the responsibility to assess their
           own risk and vulnerabilities by developing a State Homeland Security Plan that
           can be used to help the States develop effective funding priorities for SHSP
           grants.

           Although WOHS is not required to use specific factors to assess risk for subgrant
           allocations, FEMA stated that it would support the use of riskͲbased allocation.

           FEMA believes this satisfies the intent of the recommendation and requests that
           this recommendation be resolved and closed.

           WOHS’ Response to Recommendation #5:
           WOHS did not concur with this recommendation. According to WOHS, Wyoming
           is a large state with a widely dispersed population; however, communications
           with its partners in communities across the State are frequent. Risk factors are
           evaluated at the local level through Mitigation plans and real world events.
           WOHS believes the methodology currently used for distribution of grant funds is
           an efficient and effective way of disbursing funds to its local communities.


www.oig.dhs.gov                                11                                          OIGͲ14Ͳ31
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           OIG Analysis:
           FEMA responded that it cannot require WOHS to include risk factors such as
           population density, critical infrastructure, and economic impact in its SHSP
           allocation methodology. We have revised our recommendation for FEMA to
           encourage WOHS to include risk factors in its grant allocation methodology.

           State and local governments are responsible for assessing their own risk factors
           that can be used to determine effective funding priorities. FEMA provided
           guidance for a community to use its THIRA results to make decisions about how
           to allocate limited resources.4 However, WOHS’ SHSP allocation methodology is
           not based on the State’s risks and vulnerabilities. According to WOHS, their
           allocation methodology is designed to ensure each jurisdiction gets a “fair share”
           of SHSP funds.

           While FEMA may not be able to require WOHS to use specific risk factors to
           prioritize its allocation of SHSP funds, it may require the State to distribute funds
           based on risks to ensure the most critical disaster preparedness needs are
           addressed. It would be prudent for WOHS to implement a riskͲbased allocation
           methodology to ensure SHSP grant funds are distributed to areas where the risk
           of terrorism and the effects of catastrophic disasters are greatest. If WOHS were
           to allocate its SHSP funds based on risks and vulnerabilities, rather than ensuring
           all jurisdictions receive a “fair share” of grant funds without regard for need, the
           effectiveness of SHSP grant funds in attaining terrorism and hazardous
           preparedness capabilities may be improved.

           Recommendation #5 has been resolved and closed based on FEMA’s response.

           FEMA’s Response to Recommendation #6:
           FEMA did not concur with recommendation #6. According to FEMA, it recognizes
           that the use of subgrantee project budgets or spend plans as the basis for
           subgrantee awards could be a promising practice, it does not have the authority
           to require the State to use a specific methodology in its subgranting process.
           States are required to follow their own State law and procedures when awarding
           or administering subgrants. To the extent that WOHS is following its own State
           law and procedures when making its subgrant allocations and awards, FEMA
           does not have the authority to prescribe a different method.

           However, FEMA grantees must still spend grant funds in compliance with
           applicable statutes and regulations, and the stated purposes of their grants. To

   4
    Threat and Hazard Identification and Risk Assessment Guide, Comprehensive Preparedness Guide (CPG)
   201, Second Edition, dated August 2013


www.oig.dhs.gov                                     12                                            OIGͲ14Ͳ31
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           the extent WOHS' subgrant allocation method results in the purchase of
           prohibited items or uses of funds that do not support appropriate grant funded
           activities, FEMA may disallow these costs or seek reimbursement. For this
           reason, FEMA will encourage WOHS to use an allocation methodology that will
           ensure grant funds support activities that may be properly funded under the
           HSGP program, and thus avoid the potential for disallowed costs and
           recoupment of grant funds.

           FEMA believes this satisfies the intent of the recommendation and requests that
           this recommendation be resolved and closed.

           WOHS’ Response to Recommendation #6:
           WOHS does not concur with recommendation #6. According to the WOHS, while
           not required to do so by grant guidance, it has already initiated a budgeting
           process with subgrantees. With the 2013 Homeland Security Grant allocation
           process, subgrantees were required to submit a distribution of funds among the
           State Initiatives defined in the application prior to receiving their award.

           OIG Analysis:
           FEMA responded that it cannot require states use subgrantee project budgets or
           spend plans as the basis for subgrantee awards. We therefore revised our
           recommendation for FEMA to encourage WOHS to use subgrantee project
           budgets or spend plans as the basis for subgrantee awards.

           FEMA acknowledged that implementing the recommendation could be a
           promising practice and that it will encourage WOHS to utilize an allocation
           methodology that will ensure grant funds are spent appropriately on activities
           that may be properly funded under the HSGP program. While not required to do
           so, the WOHS stated that it is requiring subgrantees to submit a distribution of
           funds among the State Initiatives defined in the application prior to receiving
           their award.

           FEMA’s and WOHS’ actions meet the intent of recommendation #6 and it has
           been resolved and closed.

           Grant Management Oversight

           WOHS did not have a standardized process to ensure that the use of grant funds
           complied with Federal and State guidelines. For example, WOHS did not have
           written policies or procedures for dayͲtoͲday oversight of subgrantees’ use of
           grant funds. Additionally, its Financial Monitoring Site Visit procedures were in
           draft. According to Office of Management and Budget Circular AͲ133,


www.oig.dhs.gov                                13                                       OIGͲ14Ͳ31
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


             Compliance Supplement 2013, Part 3ͲCompliance Requirements, M. SubͲrecipient
             Monitoring, grantees are responsible for monitoring subgrantees’ use of Federal
             awards through reporting, site visits, regular contact, or other means. As a result,
             we identified instances of noncompliance with Federal and State guidelines for
             the use of SHSP grant funds.

             Additionally, WOHS officials noted that the office had used an external
             accounting firm to audit subgrantee financial and inventory processes in the
             past. WOHS officials discontinued the use of the accounting firm after the FY
             2009 audit because they determined that audits were not a good use of the
             limited grant funds. WOHS planned to conduct the subgrantee monitoring visits
             itself; however, it had not implemented procedures to conduct the reviews. As a
             result, neither WOHS nor any auditing firm reviewed subgrantee financial and
             inventory processes during FYs 2010, 2011, or 2012.

             Subgrantee Compliance Issues

             In our review of 26 SHSP subgrantee awards totaling approximately $4 million,
             we identified instances of expenditures that did not comply with Federal
             requirements. If adequate oversight and monitoring procedures existed, these
             instances of noncompliance could have been identified and corrected.

             Table 1 shows the instances of noncompliance with subgrantee expenditures
             resulting in questioned costs of $393,752.

                                Table 1. Questioned Costs
                                      Compliance Issues                        Amount
                                  SoleͲSource Procurement                       $106,216
                                  Employee Compensation                          220,730
                                  Equipment Purchases                             51,621
                                  Education                                       15,185
                                  Total                                         $393,752
                                Source: Prepared by DHS OIG

             For example, Wyoming Law Enforcement Academy personnel were
             compensated $211,942 while working multiple grants without properly
             accounting for hours worked on each grant, as required by the CFR.5 The


   5
    According to 2 CFR Appendix B to Part 225 – Selected Items of Cost, §§ 8.h.(4) and (5)(a), Compensation
   for personal services, “Where employees work on multiple activities or cost objectives, a distribution of their
   salaries or wages will be supported by personnel activity reports ... [that] must reflect an afterͲtheͲfact distribution of
   the actual activity of each employee.”


www.oig.dhs.gov                                                14                                                       OIGͲ14Ͳ31
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Laramie County Sheriff’s Office also purchased a vehicle with grant funds
           although that vehicle was not used for official law enforcement activities. Finally,
           grant funds were used to administer a college scholarship program that did not
           support terrorism or other disaster preparedness activities. Appendix F contains
           additional information on the compliance issues identified in table 1.

           State Compliance Issues

           The WOHS did not properly budget, monitor, and track management and
           administration expenses as required by Federal Law and HSGP guidance.
           Specifically, the WOHS:

                  x   FY 2010 budget exceeded the 5 percent authorized for grant
                      management and administration expenses by $168,608, or 2.5 percent of
                      2010 HSGP funds; and
                  x   Used $35,474 of management and administration funds for other
                      expenditures not permitted under the FY 2010 HSGP guidance.

           We notified the WOHS of these discrepancies in May 2013, and it has since
           corrected them.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate
           require WOHS to:

           Recommendation #7: Develop and implement policies and procedures for dayͲ
           toͲday monitoring of grant funds usage to ensure compliance with applicable
           Federal requirements and achievement of HSGP goals.

           Recommendation #8: Complete a review of the questioned costs and report its
           findings to FEMA for final determination and recovery of unallowable costs.

           Management Comments and OIG Analysis

           FEMA’s Response to Recommendation #7:
           FEMA concurred with recommendation #7. According to FEMA, it will require
           and work with WOHS to develop and implement policies and procedures for the
           conduct of dayͲtoͲday monitoring of grant funds usage to ensure compliance
           with applicable Federal requirements and achievement of HSGP goals within 180
           days of this report being published.



www.oig.dhs.gov                                 15                                        OIGͲ14Ͳ31
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           FEMA believes this satisfies the intent of the recommendation and requests that
           this recommendation be resolved and open pending implementation of the
           stated corrective actions.

           WOHS’ Response to Recommendation #7:
           WOHS concurs with recommendation #7. According to WOHS, it is in the process
           of reviewing and updating policies and procedures within the grant
           reimbursement process. In addition, WOHS has developed a desktop monitoring
           process and WOHS is currently validating this methodology through preliminary
           site visits.

           OIG Analysis:
           The response and action plan proposed by FEMA and WOHS satisfies the intent
           of the recommendation. Recommendation #7 will remain resolved and open
           pending implementation of the stated corrective actions.

           FEMA’s Response to Recommendation #8:
           FEMA concurred with recommendation #8. According to FEMA, it will require
           WOHS to submit documentation on expended funds identified as questioned
           costs in the "Grant Management Oversight" section of the report for FEMA' s
           analysis and determination of their allowability, and recoupment of grant funds,
           where warranted.

           FEMA believes this satisfies the intent of the recommendation and requests that
           this recommendation be resolved and open pending implementation of the
           stated corrective actions.

           WOHS’ Response to Recommendation #8:
           The WOHS did not specifically address recommendation #8 in its written
           comments to the report. However, the WOHS did respond to several of the
           categories of questioned costs in the Grant Management Oversight section of
           the report. WOHS officials did not agree with the Education related questioned
           costs. Specifically, WOHS maintains that the Laramie County Community College
           scholarship program, started in FY 2005, was an authorized expenditure and
           cited the FY 2005 Homeland Security Grant Program guidance, which states:

                  "SHSP funds may be used to enhance the capabilities of state and
                  local emergency preparedness and response personnel through
                  development of a state homeland security training program.
                  Allowable trainingͲrelated costs include 1) the establishment of
                  Chemical, Biological, Radiological, Nuclear, and Explosive
                  materials, Critical Infrastructure Protection, agricultural/food


www.oig.dhs.gov                               16                                       OIGͲ14Ͳ31
                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                      security, cyber security, and geospatial training programs within
                      existing training academies, universities, or junior colleges."

           Additionally, WOHS says that DHS officials were aware of the scholarship
           program, and at no time did they deem the program an inappropriate expense.

           OIG Analysis:
           FEMA concurs with recommendation #8 that WOHS complete a review of the
           questioned costs and report its findings to FEMA for final determination and
           recovery of unallowable costs. However, FEMA did not provide a timeline for
           implementing the recommendation.

           FEMA’s response satisfies the intent of the recommendation; however,
           recommendation #8 will remain unresolved and open until FEMA provides a
           corrective action plan that includes milestones for implementation.

           The OIG maintains its position concerning the questioned costs associated with
           the Laramie County Community College scholarship program. As noted by
           WOHS, “SHSP funds may be used to enhance the capabilities of state and local
           emergency preparedness and response personnel through development of a
           state homeland security training program [emphasis added].” The conditions of
           the scholarship program did not require the students to:

                  x   Be a first responder or emergency preparedness and response personnel;
                  x   Be employed by an agency having disaster preparedness or response
                      duties;
                  x   Have a major in Homeland Security, Criminal Justice, or other related
                      field; or
                  x   Contribute to the State’s implementation of its State Homeland Security
                      Strategies.

           Scholarship recipients had majors that included Native American Studies,
           Outdoor Education, and Biology, among others. The expenditures were not
           consistent with the purpose of the SHSP grant.




www.oig.dhs.gov                                   17                                      OIGͲ14Ͳ31
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Sustainment of Capabilities

           The WOHS may not be positioned to sustain capabilities achieved through the
           use of HSGP grant funds in the event of reduced Federal funding. HSGP funds to
           the State have decreased 52 percent over the most recent 5Ͳyear period. FEMA
           grant guidance and information bulletins have emphasized the importance of
           using funding to sustain core capabilities in the event of reduced funding.
           Specifically, FEMA Grant Programs Directorate Information Bulletin, No.379,
           Attachment C, page 12, February 17, 2012, indicates, “In this time of limited
           resources, grantees must ensure that grant funding is utilized to maintain
           current capabilities that were funded by past grant funding cycles. Grantees are
           encouraged to plan and budget for the complete lifecycle of inventories and
           resources, equipment upgrades, skillͲmaintenance training and exercises, and
           plans and procedure updates, ensuring consistent and effective capabilities are
           attained across the preparedness spectrum.” According to the WOHS, reduced
           or eliminated Federal grant funds would result in fewer funds for subgrantees
           and possible reductions in WOHS staff if the State did not provide funding
           necessary to offset the loss of Federal funds. However, the WOHS did not have a
           plan that prioritized capability requirements and identified the funding necessary
           to sustain those core capabilities. The State’s capability to prevent, protect
           against, mitigate, respond to, and recover from terrorist attacks and major
           disasters may be degraded without a plan to sustain its preparedness capabilities
           in the event of continued reductions in Federal funding.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate
           encourage WOHS to:

           Recommendation #9: Develop and implement a comprehensive contingency
           plan to sustain capabilities resulting from SHSP grant funding in the event of
           reduced or eliminated Federal funding.

           Management Comments and OIG Analysis

           FEMA’s Response to Recommendation #9:
           FEMA does not concur with recommendation #9. According to FEMA, it agrees
           that it would be prudent for grantees to identify sustainment methods beyond
           grant funding; however, they do not concur because FEMA does not have the
           legal authority to require sustainability of Homeland Security Grant Program
           grant funded programs or to enforce this recommendation.



www.oig.dhs.gov                                18                                       OIGͲ14Ͳ31
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           Notwithstanding the lack of legal authority to require States and other HSGP
           grant recipients to maintain and sustain capabilities in the absence of continuing
           Federal grant funding, since FY 2012, FEMA has required that HSGP grantees
           prioritize sustainment of existing capabilities over using grant funding to build
           new capabilities.

           WOHS’ Response to Recommendation #9:
           WOHS does not concur with recommendation #9. According to the WOHS, it is
           aware of the potential for the reduction/elimination of grant funding and has
           discussed the need to address the legislature for an increase in state funding
           during regular budget sessions should the need arise. According to the FY2013
           Funding Opportunity Announcement, "A jurisdiction should consider all
           resources available to it, including local and State appropriations, bond
           initiatives, mutual aid, and Federal grants, as appropriate, to support building
           and sustaining capabilities."

           OIG Analysis:
           The OIG recognizes the limitations to FEMA’s legal authority. Based on FEMA’s
           assertion that it cannot require WOHS to develop and implement a
           comprehensive contingency plan to sustain capabilities, we have revised our
           recommendation to advise FEMA to encourage WOHS to do so.

           FEMA’s response meets the intent of recommendation #9 and it has been
           resolved and closed.

           Although not required, it would be prudent for WOHS to take steps on its own to
           develop and implement a contingency plan for sustaining critical capabilities
           achieved with HSGP funds. Such a plan would be beneficial in prioritizing critical
           capabilities and the funding required to sustain those capabilities.




www.oig.dhs.gov                                19                                       OIGͲ14Ͳ31
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107Ͳ296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The audit objectives were to determine whether the State of Wyoming distributed,
   administered, and spent SHSP grant funds strategically, effectively, and in compliance
   with laws, regulations, and guidance. We also addressed the extent to which grant funds
   enhanced the State’s ability to prevent, prepare for, protect against, and respond to
   natural disasters, acts of terrorism, and other manͲmade disasters.

   The scope of this audit included the plans developed by the State to improve
   preparedness and response to all types of hazards, goals, and objectives set in those
   plans; measurement of progress towards the goals; and assessment of performance
   improvements resulting from this measurement.

   Together, HSGP and its interrelated grant programs fund a range of preparedness
   activities, including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. However, we reviewed only SHSP funding,
   equipment, and supported programs for compliance.

   The scope of the audit included the SHSP grant awards for FY 2010, FY 2011, and FY
   2012, as shown in table 2.

   Table 2. SHSP Grant Awards (FYs 2010, 2011, and 2012)
             Grant Program               FY 2010           FY 2011      FY 2012        Total

     State Homeland Security Program   $6,613,200         $5,137,205   $2,801,316   $14,551,721
   Source: Prepared by DHS OIG based on FEMA data.

   The audit methodology included work at FEMA headquarters, State of Wyoming offices,
   and various subgrantee locations. To achieve our audit objectives, we analyzed data,
   reviewed documentation, and interviewed key State and local officials directly involved
   in the management and administration of the State’s HSGP. Table 3 lists the SHSP
   subgrantee awards reviewed for FYs 2010, 2011, and 2012.




www.oig.dhs.gov                                      20                                        OIGͲ14Ͳ31
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Table 3. Subgrantee Awards Reviewed (FYs 2010, 2011, and 2012)
                                       Subgrantee                         Grant Amount
    1. Wyoming Law Enforcement Academy                                        $735,005.00
    2. Wyoming Board of Outfitters and Professional Guides                      $19,128.89
    3. Laramie County Community College                                         $40,000.00
    4. Wyoming Department of Fire Prevention and Electrical Safety              $18,527.11
    5. Wyoming Division of Criminal Investigation                               $41,394.65
    6. Wyoming Game & Fish                                                      $67,852.48
    7. Converse County                                                        $195,405.19
    8. Converse County Sheriff’s Office                                         $34,647.13
    9. Converse County Coroner                                                  $15,105.13
    10. City of Douglas Police Department                                       $40,891.47
    11. Platte County                                                         $177,693.79
    12. Platte County Sheriff’s Office                                          $30,498.90
    13. Platte County Coroner                                                   $15,105.13
    14. City of Wheatland Police Department                                     $26,173.14
    15. Goshen County                                                         $195,507.41
    16. Goshen County Sheriff’s Office                                          $33,417.49
    17. Goshen County Coroner                                                   $15,105.13
    18. City of Torrington Police Department                                    $39,932.18
    19. Albany County                                                         $286,864.41
    20. Albany County Sheriff’s Department                                      $48,437.13
    21. Region 3 State Emergency Response Team                                $300,000.00
    22. City of Laramie Police Department                                       $93,769.64
    23. Laramie County                                                        $553,378.81
    24. Laramie County Sheriff’s Office                                       $101,983.46
    25. Region 7 State Emergency Response Team                                $300,000.00
    26. City of Cheyenne Police Department                                    $176,908.58
    Total of Subgrantee Awards Reviewed                                     $3,602,732.25
   Source: Prepared by DHS OIG based on WOHS data.

   We conducted this performance audit between May 2013 and August 2013 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                                    21                                 OIGͲ14Ͳ31
                   OFFICE OF INSPECTOR GENERAL
                     Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report




www.oig.dhs.gov                  22                    OIGͲ14Ͳ31
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                23                    OIGͲ14Ͳ31
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                24                    OIGͲ14Ͳ31
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                25                    OIGͲ14Ͳ31
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                26                    OIGͲ14Ͳ31
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                27                    OIGͲ14Ͳ31
                   OFFICE OF INSPECTOR GENERAL
                      Department of Homeland Security


   Appendix C
   State of Wyoming’s Management Comments to the Draft Report




www.oig.dhs.gov                   28                      OIGͲ14Ͳ31
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                29                    OIGͲ14Ͳ31
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                30                    OIGͲ14Ͳ31
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                31                    OIGͲ14Ͳ31
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix D
   Homeland Security Grant Program Overview
   State Homeland Security Program
   SHSP supports the implementation of State Homeland Security Strategies to address the
   identified planning, organization, equipment, training, and exercise needs to prevent,
   protect against, respond to, and recover from acts of terrorism and other catastrophic
   events.

   Urban Areas Security Initiative Program
   Urban Areas Security Initiative program funds address the unique planning,
   organization, equipment, training, and exercise needs of highͲthreat, highͲdensity Urban
   Areas, and assists them in building an enhanced and sustainable capacity to prevent,
   protect against, respond to, and recover from acts of terrorism.

   Operation Stonegarden
   Operation Stonegarden funds are intended to enhance cooperation and coordination
   among local, tribal, territorial, State, and Federal law enforcement agencies in a joint
   mission to secure the United States borders along routes of ingress from international
   borders to include travel corridors in States bordering Mexico and Canada, as well as
   States and territories with international water borders.

   Metropolitan Medical Response System Program
   The Metropolitan Medical Response System program supports the integration of
   emergency management, health, and medical systems into a coordinated response to
   mass casualty incidents caused by any hazard. Successful Metropolitan Medical
   Response System grantees reduce the consequences of a mass casualty incident during
   the initial period of a response by having augmented existing local operational response
   systems before an incident occurs.

   Citizen Corps Program
   The Citizen Corps mission is to bring community and government leaders together to
   coordinate the involvement of community members and organizations in emergency
   preparedness, planning, mitigation, response, and recovery.

   Note: Both the Metropolitan Medical Response System Program and the Citizen Corps
   Program are no longer funded as discrete grant programs beginning with the FY 2012
   HSGP.




www.oig.dhs.gov                                32                                       OIGͲ14Ͳ31
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix E
   Wyoming Counties and Regions




    Source: Wyoming Office of Homeland Security




www.oig.dhs.gov                                   33                 OIGͲ14Ͳ31
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix F
   State of Wyoming Procurement and Financial Management
   Compliance Issues and Schedule of Questioned Costs
       x   SoleͲSource Procurement

           Albany County expended $106,216 of SHSP grant funds on a $165,708 soleͲ
           source procurement of a Siren Notification System without conducting the cost
           analysis required by 44 CFR §13.36 – Procurement. Additionally, WOHS did not
           have evidence that it conducted the preͲaward review of the soleͲsource
           procurement required by the CFR.

       x   Employee Compensation

           Two subgrantees expended SHSP grant funds on salaries for staff working on
           multiple grant programs without properly accounting for hours worked on each
           grant. Specifically, the Wyoming Law Enforcement Academy expended $211,942
           on training staff salaries, and Albany County expended $8,788 on its emergency
           management coordinator salary. According to 2 CFR Appendix B to Part 225 –
           Selected Items of Cost, §§ 8.h.(4) and (5)(a), Compensation for personal services,
           “Where employees work on multiple activities or cost objectives, a distribution
           of their salaries or wages will be supported by personnel activity reports ... [that]
           must reflect an afterͲtheͲfact distribution of the actual activity of each
           employee.”

           In addition, the DHS Homeland Security Grant Program Guidance and Application
           Kit for FY 2010 indicates that allowable trainingͲrelated costs include payment of
           salaries and fringe benefits; however, the costs must not exceed 15 percent of
           the total allocation. The Wyoming Law Enforcement Academy expended 37
           percent of its grant award on salaries.

       x   Equipment Purchases

           Two subgrantees purchased equipment and supplies that did not meet the
           purpose of the SHSP grant. Specifically, the Wyoming Board of Outfitters and
           Professional Guides purchased equipment, such as computers and digital voice
           recorders, for $9,851 to support huntingͲrelated activities associated with the
           agency’s mission. Additionally, the Wyoming Division of Criminal Investigation
           expended $25,904 for the purchase of surveillance cameraͲrelated equipment to
           monitor illicit drug activity in neighborhoods. The DHS Homeland Security Grant
           Program Guidance and Application Kit for FY 2010 indicates that the SHSP


www.oig.dhs.gov                                 34                                         OIGͲ14Ͳ31
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           supports the implementation of State Homeland Security Strategies to address
           the identified planning, organization, equipment, training, and exercise needs to
           prevent, protect against, respond to, and recover from acts of terrorism and
           other catastrophic events. The purchases by the Wyoming Board of Outfitters
           and Professional Guides and the Wyoming Division of Criminal Investigation
           were not consistent with the purpose of the SHSP grant.

           The Laramie County Sheriff’s Office expended $15,866 toward the purchase of a
           vehicle that was not used for official law enforcement activities. According to
           sheriff’s office staff, the vehicle was not outfitted with the equipment necessary
           for the vehicle to be used for law enforcement activities and was being used as a
           “takeͲhome” car. FEMA Grant Programs Directorate Information Bulletin, No.
           379, February 17, 2012 indicates that the purchase of generalͲpurpose law
           enforcement vehicles is authorized; however, this vehicle was not being used in
           that manner.

       x   Education

           Laramie County Community College expended $15,185 on a scholarship program
           that did not meet the purpose of the SHSP grant. Specifically, Laramie County
           Community College provided tuition reimbursement to any student taking a
           homeland securityͲrelated course. There was no requirement that the student
           be a first responder, be employed by an agency having disaster preparedness or
           response duties, or otherwise contribute to the State’s implementation of its
           State Homeland Security Strategies. The expenditures were not consistent with
           the purpose of the SHSP grant and therefore would not be allowable.

           Table 4 presents the total schedule of questioned costs.

              Table 4. Schedule of Questioned Cost
                                 Potential Monetary Benefits
                          Finding              Rec. No.     Questioned Cost
               SoleͲSource Procurement             8                $106,216
               Employee Compensation               8                 220,730
               Equipment Purchases                 8                  51,621
               Education                           8                  15,185
               Total                                                $393,752
              Source: Prepared by DHS OIG




www.oig.dhs.gov                                35                                       OIGͲ14Ͳ31
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix G
   Major Contributors to This Report
   Donald Bumgardner, Director
   Robert Greene, Audit Manager
   Priscilla Cast, Auditor in Charge
   Jacqueline Bear, Senior Program Analyst
   Johnson Joseph, Senior Auditor
   Paul Streit, Independent Referencer
   Kevin Dolloson, Communications Analyst




www.oig.dhs.gov                              36                 OIGͲ14Ͳ31
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix H
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Federal Emergency Management Agency
   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  37                        OIGͲ14Ͳ31
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security
       Office of Inspector General, Mail Stop 0305
       Attention: Office of Investigations Hotline
       245 Murray Drive, SW
       Washington, DC 20528-0305

You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
